No. 19-963

In the Supreme Court of the United States
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE PETITIONER

PAUL F. SCHUSTER
CYNTHIA KEELY TIMMS
LOCKE LORD LLP
2200 Ross Avenue,
Suite 2800
Dallas, TX 75201
RICHARD C. GODFREY
KIRKLAND & ELLIS LLP
300 North LaSalle Street
Chicago, IL 60654

KANNON K. SHANMUGAM
Counsel of Record
WILLIAM T. MARKS
STACIE M. FAHSEL
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
ETHAN R. MEREL
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

QUESTION PRESENTED

Whether a provision in an arbitration agreement that
exempts certain claims from arbitration negates an otherwise clear and unmistakable delegation of questions of arbitrability to an arbitrator.

(I)

CORPORATE DISCLOSURE STATEMENT

Henry Schein, Inc., has no parent corporation, and no
publicly held company holds 10% or more of its stock.

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provision involved........................................................ 2
Statement ...................................................................................... 2
A. Background ...................................................................... 5
B. Facts and procedural history ......................................... 8
Summary of argument ............................................................... 15
Argument..................................................................................... 19
The exemption of certain claims from the scope
of an arbitration agreement does not negate
a delegation of questions of arbitrability
to an arbitrator ..................................................................... 19
A. The ‘clear and unmistakable evidence’
rule applies only to the initial question
whether the parties agreed to a delegation
of arbitrability.......................................................... 19
B. The presumption of arbitrability applies
to determine the scope of a delegation
of arbitrability.......................................................... 24
C. A carve-out provision does not negate
a valid delegation of arbitrability .......................... 31
1. The presumption of arbitrability requires
a carve-out provision to be construed not
to limit the scope of a valid delegation ........... 31
2. The court of appeals’ contrary approach
conflicts with this Court’s case law
and leads to illogical results............................. 33
D. The Court should vacate the judgment below
and remand the case for further proceedings ...... 39
Conclusion ................................................................................... 41

(III)

IV
TABLE OF AUTHORITIES

Page
Cases:
American Express Co. v. Italian Colors
Restaurant, 133 S. Ct. 2304 (2013) ................................ 20
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) .................................................. 5, 6, 19
AT&T Technologies, Inc. v. Communications
Workers, 475 U.S. 643 (1986) ................................ passim
Awuah v. Coverall North America, Inc.,
554 F.3d 7 (1st Cir. 2009) ................................................ 38
Belnap v. Iasis Healthcare,
844 F.3d 1272 (10th Cir. 2017) ....................................... 38
BG Group plc v. Republic of Argentina,
572 U.S. 25 (2014) ............................................ 7, 21, 24, 30
Blanton v. Domino’s Pizza Franchising LLC,
962 F.3d 842 (6th Cir. 2020) ................................. 8, 34, 39
Boise Cascade Corp. v. Steelworkers,
588 F.2d 127 (5th Cir. 1979) ........................................... 30
Brennan v. Opus Bank, 796 F.3d 1125 (9th Cir. 2015) .... 38
Brittania-U Nigeria, Ltd. v. Chevron USA, Inc.,
866 F.3d 709 (5th Cir. 2017) ........................................... 40
Collins v. D.R. Horton, Inc.,
505 F.3d 874 (9th Cir. 2007) ........................................... 34
Comedy Club, Inc. v. Improv West Associates,
553 F.3d 1277 (9th Cir.),
cert. denied, 558 U.S. 824 (2009) .................................... 10
Contec Corp. v. Remote Solutions, Co.,
398 F.3d 205 (2d Cir. 2005) ............................................. 38
Epic Systems Corp. v. Lewis, 138 S. Ct. 1612 (2018) ........ 20
Erving v. Virginia Squires Basketball Club,
468 F.2d 1064 (2d Cir. 1972) ........................................... 10
Fallo v. High-Tech Institute,
559 F.3d 874 (8th Cir. 2009) ........................................... 38
First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938 (1995) ................................................. passim

V
Page
Cases—continued:
Gilmer v. Interstate/Johnson Lane Corp.,
500 U.S. 20 (1991) .............................................................. 6
Granite Rock Co. v. Teamsters,
561 U.S. 287 (2010) .......................................... 7, 21, 30, 33
Green Tree Financial Corp. v. Bazzle,
539 U.S. 444 (2003) .......................................................... 30
Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79 (2002) ................................................... passim
Koch v. Compucredit Corp.,
543 F.3d 460 (8th Cir. 2008) ............................................. 7
Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407 (2019) ............................................ 7, 23, 30
Lawrence v. Comprehensive Business
Services Co., 833 F.2d 1159 (5th Cir. 1987) .................. 10
Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614 (1985) ............... 5
Moses H. Cone Memorial Hospital v. Mercury
Construction Corp., 460 U.S. 1 (1983)............. 6, 7, 21, 38
New Prime Inc. v. Oliveira,
139 S. Ct. 532 (2019) ........................................................ 25
Oracle America, Inc. v. Myriad Group A.G.,
724 F.3d 1069 (9th Cir. 2013) ........................................... 7
Prima Paint Corp. v. Flood & Conklin
Manufacturing Co., 388 U.S. 395 (1967) ...................... 26
Qualcomm Inc. v. Nokia Corp.,
466 F.3d 1366 (Fed. Cir. 2006) ....................................... 38
Rent-A-Center, West, Inc. v. Jackson,
561 U.S. 63 (2010) ................................................... passim
Scherk v. Alberto-Culver Co., 417 U.S. 506 (1974) .............. 5
Simply Wireless, Inc v. T-Mobile US, Inc.,
877 F.3d 522 (4th Cir. 2017),
cert. denied, 139 S. Ct. 915 (2019) ................................. 38
Steelworkers v. Warrior & Gulf
Navigation Co., 363 U.S. 574 (1960) .................... passim

VI
Page
Cases—continued:
Stolt-Nielsen S.A. v. AnimalFeeds International
Corp., 559 U.S. 662 (2010) .............................................. 21
Volt Information Sciences, Inc. v. Board of Trustees
of Leland Stanford Junior University,
489 U.S. 468 (1989) .......................................................... 21
W.R. Grace & Co. v. Rubber Workers,
461 U.S. 757 (1983) .......................................................... 30
Statutes:
Federal Arbitration Act, 9 U.S.C. 1-16 ..................... passim
9 U.S.C. 2 (§ 2) ......................................................... 2, 6, 20
9 U.S.C. 3 (§ 3) ............................................................. 9, 20
9 U.S.C. 4 (§ 4) ............................................................. 9, 20
9 U.S.C. 16(a) (§ 16(a)) .................................................... 11
Sherman Antitrust Act, 15 U.S.C. 1 (§ 1) ............................ 8
28 U.S.C. 1254(1) .................................................................... 1
Miscellaneous:
Karen Halverson Cross, Letting the Arbitrator
Decide Unconscionability Challenges,
26 Ohio St. J. Disp. Resol. 1 (2011) .......................... 30, 31
Martin Domke et al., Domke on Commercial
Arbitration (3d ed. 2003) ....................................... passim
H.R. Rep. No. 96, 68th Cong., 1st Sess. (1924) ................... 5
Thomas J. Stipanowich, The Third Arbitration
Trilogy: ‘Stolt-Nielsen,’ ‘Rent-A-Center,’
‘Concepcion’ and the Future of American
Arbitration, 22 Am. Rev. Int’l Arb. 323 (2011) ...... 28, 29

In the Supreme Court of the United States
No. 19-963
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE PETITIONER

OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1a-16a)
is reported at 935 F.3d 274. The district court’s opinion
denying petitioner’s motion to compel arbitration (Pet.
App. 17a-36a) is unreported. A prior opinion of this Court
is reported at 139 S. Ct. 524, and a prior opinion of the
court of appeals is reported at 878 F.3d 488.
JURISDICTION

The judgment of the court of appeals was entered on
August 14, 2019. A petition for rehearing was denied on
December 6, 2019 (Pet. App. 42a-43a). The petition for a
writ of certiorari was filed on January 31, 2020, and
granted on June 15, 2020. The jurisdiction of this Court
rests on 28 U.S.C. 1254(1).
(1)

2
STATUTORY PROVISION INVOLVED

Section 2 of the Federal Arbitration Act, 9 U.S.C. 2,
provides:
A written provision in any maritime transaction or a
contract evidencing a transaction involving commerce
to settle by arbitration a controversy thereafter arising out of such contract or transaction, or the refusal
to perform the whole or any part thereof, or an agreement in writing to submit to arbitration an existing
controversy arising out of such a contract, transaction,
or refusal, shall be valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in equity for
the revocation of any contract.
STATEMENT

This case returns to the Court after the court of appeals refused to compel arbitration a second time. It now
presents a question that the Court left open in its previous
decision concerning the enforcement of arbitration agreements that delegate questions of arbitrability to an arbitrator.
In that decision, the Court confirmed that the Federal
Arbitration Act allows parties to agree to arbitrate
“threshold arbitrability questions”—that is, questions
concerning whether the parties agreed to arbitrate a particular dispute—provided that the parties’ agreement delegates those questions to an arbitrator by “clear and unmistakable evidence.” 139 S. Ct. 524, 530 (2019) (internal
quotation marks and citation omitted). A delegation that
satisfies that requirement, the Court explained, “is simply
an additional, antecedent agreement the party seeking arbitration asks the federal court to enforce,” and the Arbitration Act “operates on this additional arbitration agreement just as it does on any other.” Id. at 529 (internal
quotation marks and citation omitted). Because such a

3
delegation provision is itself appropriately viewed as an
antecedent arbitration agreement, the Court has interpreted and enforced such provisions using the normal federal-law rules that apply to arbitration agreements more
generally. See id. at 528-530.
This case concerns how those rules apply to delegation
provisions. In some arbitration agreements (including the
one at issue here), parties will clearly agree to a delegation of arbitrability but will also include a “carve-out” provision exempting certain claims or actions from the scope
of the agreement. The question presented in this case is
whether, consistent with the Arbitration Act, a court may
construe a carve-out provision as negating an otherwise
clear and unmistakable delegation of arbitrability.
Petitioner and respondent are distributors of dental
equipment. Respondent filed the underlying complaint
against petitioner and certain other distributors and manufacturers of dental equipment in federal court, alleging
that the defendants had violated federal and state antitrust laws by conspiring to terminate or restrict respondent’s distributorship rights. Petitioner and the other defendants moved to stay the litigation and compel arbitration, invoking certain distributor agreements that required respondent to arbitrate disputes “arising under or
related to” the agreements, including questions of arbitrability. The agreements contained a carve-out provision
for “actions seeking injunctive relief.”
A magistrate judge initially granted the defendants’
motions, but the district court vacated the magistrate
judge’s order and denied the motions. The court of appeals affirmed. Invoking an unstated exception to the Arbitration Act, the court of appeals held that, even if the
parties did clearly and unmistakably agree to a delegation

4
of arbitrability, the delegation would be unenforceable because defendants’ argument in favor of arbitrability was
“wholly groundless.”
This Court granted certiorari and unanimously held
that, under the Arbitration Act, a court may not decide
questions of arbitrability if the parties clearly and unmistakably delegated those questions to an arbitrator, even if
the court believed that the argument in favor of arbitrability was “wholly groundless.” See 139 S. Ct. at 528. The
Court then remanded the case for the court of appeals to
determine in the first instance whether the parties’ arbitration agreement included a clear and unmistakable delegation. See id. at 531.
On remand, the court of appeals once again refused to
compel arbitration. Pet. App. 1a-16a. It conceded that the
parties had clearly and unmistakably delegated at least
some questions of arbitrability to the arbitrator. Id. at 8a.
But it nonetheless decided that it must make the arbitrability determination itself, holding that the presence of a
carve-out provision in the agreement negated the otherwise clear and unmistakable evidence of the parties’ intent to delegate arbitrability. Id. at 11a. The court therefore concluded that it had to determine whether the
claims at issue fell outside the scope of the arbitration
agreement—a paradigmatic question of arbitrability—in
order to determine whether the parties had agreed to
have an arbitrator decide that very question in the first
place. Id. at 10a-12a.
That decision defies common sense and conflicts with
the Court’s case law. Once a court finds clear and unmistakable evidence of a delegation, there is an antecedent
arbitration agreement enforceable under the Arbitration
Act. That agreement is subject to the normal rules governing arbitration agreements—including the presumption of arbitrability. Accordingly, a clear and unmistak-

5
able delegation of arbitrability questions to an arbitrator
should be construed to encompass all such questions, absent a clear indication to the contrary. Under that rule, a
carve-out provision that speaks only in terms of claims or
actions exempted from arbitration does not provide the
requisite clarity to show that the parties intended the
carve-out provision to affect who decides questions of arbitrability. The court of appeals’ contrary decision is erroneous, and its judgment should be vacated.
A. Background

1. As this Court is well aware, arbitration is an alternative form of dispute resolution that offers many benefits
over traditional litigation. Arbitration allows the parties
to design their own “efficient, streamlined procedures tailored to the type of dispute” at issue. AT&T Mobility
LLC v. Concepcion, 563 U.S. 333, 344 (2011). It produces
“expeditious results.” Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614, 633 (1985). And it
“reduc[es] the cost” of dispute resolution. AT&T Mobility, 563 U.S. at 345.
Despite those benefits, there has been a long history
of “judicial hostility to arbitration.” Scherk v. AlbertoCulver Co., 417 U.S. 506, 510 (1974). That hostility dates
from the English common law, which “traditionally considered irrevocable arbitration agreements as ‘ousting’
the courts of jurisdiction, and refused to enforce such
agreements for this reason.” Id. at 510 n.4. Because it
was “firmly embedded” in English law, that judicial hostility to arbitration carried over into American law. H.R.
Rep. No. 96, 68th Cong., 1st Sess. 1-2 (1924). It “manifested itself in a great variety of devices and formulas declaring arbitration against public policy.” AT&T Mobility, 563 U.S. at 342 (internal quotation marks and citation
omitted).

6
In 1925, Congress enacted the Arbitration Act to “reverse the longstanding judicial hostility to arbitration
agreements.” Gilmer v. Interstate/Johnson Lane Corp.,
500 U.S. 20, 24 (1991). As this Court has repeatedly recognized, the Arbitration Act reflects “both a liberal federal policy favoring arbitration and the fundamental principle that arbitration is a matter of contract.” AT&T Mobility, 563 U.S. at 339 (internal quotation marks and citation omitted).
Section 2 of the Arbitration Act—the Act’s “primary
substantive provision,” Moses H. Cone Memorial Hospital v. Mercury Construction Corp., 460 U.S. 1, 24 (1983)—
provides that “[a] written provision in * * * a contract
evidencing a transaction involving commerce to settle by
arbitration a controversy thereafter arising out of such
contract * * * shall be valid, irrevocable, and enforceable, save upon such grounds as exist at law or in equity
for the revocation of any contract.” 9 U.S.C. 2. Consistent
with that express mandate and the broader policy underlying the Arbitration Act, courts must “place[] arbitration
agreements on an equal footing with other contracts and
* * * enforce them according to their terms.” Rent-ACenter, West, Inc. v. Jackson, 561 U.S. 63, 67 (2010) (citations omitted).
2. The requirement that courts rigorously enforce arbitration agreements applies to “gateway” disputes over
arbitrability. See Rent-A-Center, 561 U.S. at 68-70. The
question of arbitrability concerns “whether the parties
have submitted a particular dispute to arbitration.” Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83 (2002).
It encompasses issues such as “whether the parties are
bound by a given arbitration clause” and “whether an arbitration clause in a concededly binding contract applies

7
to a particular type of controversy.” BG Group plc v. Republic of Argentina, 572 U.S. 25, 34 (2014) (citation omitted).
The question whether an arbitration agreement covers a particular type of dispute is often referred to as the
question of “scope.” See, e.g., Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407, 1418 (2019); Granite Rock Co. v. Teamsters, 561 U.S. 287, 298 (2010). That question may arise
when the agreement is limited to claims “arising under”
or “related to” a particular contract. See, e.g., Koch v.
Compucredit Corp., 543 F.3d 460, 466-467 (8th Cir. 2008);
1 Martin Domke et al., Domke on Commercial Arbitration § 15:20, at 15-41 (3d ed. 2003). It can also arise when
an arbitration agreement contains a so-called “carve-out
provision”: that is, a provision that expressly exempts
certain types of disputes from the obligation to arbitrate.
See, e.g., Oracle America, Inc. v. Myriad Group A.G., 724
F.3d 1069, 1071, 1075 (9th Cir. 2013). This Court has repeatedly stated that, as a matter of federal law, “any
doubts concerning the scope of arbitrable issues”—including “the construction of the contract language itself”—“should be resolved in favor of arbitration.” Moses
H. Cone, 460 U.S. at 24-25.
Although courts presumptively resolve disputes over
the scope of an arbitration agreement, parties may specify
otherwise by “clear[ly] and unmistakab[ly]” agreeing to
“arbitrate arbitrability.” First Options of Chicago, Inc. v.
Kaplan, 514 U.S. 938, 944 (1995) (citation omitted). One
way for parties to accomplish that result is by including in
their arbitration agreement a provision delegating questions of arbitrability to an arbitrator. As this Court has
explained, a delegation provision is “simply an additional,
antecedent agreement the party seeking arbitration asks
the federal court to enforce,” and the Arbitration Act “operates on this additional arbitration agreement just as it

8
does on any other.” Henry Schein, 139 S. Ct. at 529 (internal quotation marks and citation omitted). When parties include such a provision, the delegation of authority
to the arbitrator applies to virtually all gateway disputes
over arbitrability, including disputes over whether the arbitration agreement “covers a particular controversy.”
Ibid. (citation omitted).
A contract need not contain an express delegation provision in order to satisfy the requirement that parties
“clearly and unmistakably” delegate arbitrability questions to an arbitrator. As all eleven courts of appeals to
have considered the question have held, an agreement incorporating rules that themselves assign questions of arbitrability to the arbitrator, such as the rules of the American Arbitration Association (AAA), clearly and unmistakably indicates that the parties intend for the arbitrator to
resolve questions of arbitrability. See, e.g., Blanton v.
Domino’s Pizza Franchising LLC, 962 F.3d 842, 846 (6th
Cir. 2020) (collecting cases); J.A. 135 (AAA Commercial
Rule R-7).
B. Facts And Procedural History

1. Petitioner and respondent are distributors of dental equipment. J.A. 35, 37.
In 2012, respondent filed suit against petitioner and
other defendants in the United States District Court for
the Eastern District of Texas, alleging violations of Section 1 of the Sherman Antitrust Act, 15 U.S.C. 1, and state
antitrust law. J.A. 16; see J.A. 98-102. The operative version of the complaint seeks approximately $100 million in
damages stemming from an alleged conspiracy to boycott
respondent and to restrict respondent’s sales territories
under certain distribution agreements. J.A. 32-33. On

9
each of the two counts, the complaint also includes a summary request for unspecified injunctive relief, stating in
its entirety as follows:
[Respondent] also seeks injunctive relief. The violations set forth above are continuing and will continue
unless injunctive relief is granted.
J.A. 100, 102. The complaint contains no allegations tending to show that respondent could establish the requirements for obtaining injunctive relief. After initiating this
suit, respondent did not seek a preliminary injunction,
and the distribution agreements at issue have now terminated.
2. Petitioner and the other defendants moved to stay
the litigation and to compel arbitration of respondent’s
claims. J.A. 16-17; see 9 U.S.C. 3, 4. The motions were
based on respondent’s distribution agreements with manufacturing companies operated by Dental Equipment
LLC, previously a defendant in this case. The agreements provided in relevant part:
Any dispute arising under or related to this Agreement (except for actions seeking injunctive relief and
disputes related to trademarks, trade secrets or other
intellectual property of [the manufacturing company])
shall be resolved by binding arbitration in accordance
with the arbitration rules of the American Arbitration
Association. The place of arbitration shall be in Charlotte, North Carolina.
J.A. 114.
Respondent opposed petitioner’s motion. Respondent
contended that the district court should decide whether
its claims were arbitrable; in respondent’s view, the boilerplate request for injunctive relief in its complaint rendered the entire dispute non-arbitrable. Respondent also

10
argued that petitioner, as a non-signatory, was not entitled to invoke the arbitration provision under the doctrine
of equitable estoppel. In response, petitioner noted that
the arbitration provision incorporated AAA rules delegating questions of arbitrability to the arbitrator. Petitioner
further noted that, where (as here) an arbitration provision contains a carve-out for injunctive relief, such a
carve-out is routinely understood merely to permit injunctive relief from a court either on a preliminary basis to
preserve the status quo before or during arbitration of the
underlying claims, or on a permanent basis after the plaintiff secures an arbitral award in its favor. See, e.g., Comedy Club, Inc. v. Improv West Associates, 553 F.3d 1277,
1285-1286 (9th Cir.), cert. denied, 558 U.S. 824 (2009);
Lawrence v. Comprehensive Business Services Co., 833
F.2d 1159, 1163 (5th Cir. 1987); Erving v. Virginia
Squires Basketball Club, 468 F.2d 1064, 1067 (2d Cir.
1972).
A magistrate judge—to whom the case was assigned
for all pretrial purposes—ruled in favor of petitioner,
compelling arbitration and staying the litigation. Pet.
App. 37a-41a. Respondent moved the district court to reconsider the magistrate judge’s order. J.A. 20. More than
three years later, the district court vacated the order and
denied the motions to compel arbitration. Pet. App. 17a36a. Purporting to interpret the “[s]cope of [the] [a]rbitration [c]lause,” id. at 24a, the court reasoned that the
clause’s exception for “actions seeking injunctive relief”
meant that the mere inclusion of a request for injunctive
relief entitled respondent to litigate its claims in court. Id.
at 26a-29a. The court concluded that there was no clear
and unmistakable evidence that the parties had agreed to
delegate questions of arbitrability to the arbitrator. Id. at
30a-32a. The court also concluded, in the alternative, that

11
any contrary reading of the agreements’ arbitration provision would be “wholly groundless.” Id. at 33a-35a. Because the court concluded that the dispute at issue was not
arbitrable, it declined to address the question whether petitioner was entitled to invoke the arbitration provision
under the doctrine of equitable estoppel. Id. at 36a.
3. Petitioner and the other defendants filed an interlocutory appeal as of right under the Arbitration Act, 9
U.S.C. 16(a), and the court of appeals affirmed. See 878
F.3d 488 (5th Cir. 2017). The court held that, “[i]f an assertion of arbitrability [is] wholly groundless, the court
need not submit the issue of arbitrability to the arbitrator.” Id. at 495 (internal quotation marks and citation
omitted). The court proceeded to determine, based on its
own interpretation of “the four corners of the contract,”
that there was “no plausible argument that the arbitration
clause applies here to an ‘action seeking injunctive relief.’ ” Id. at 497. The court did not resolve the question
whether the arbitration provision contained clear and unmistakable evidence of the parties’ intent to delegate
questions of arbitrability to the arbitrator. See id. at 495.
4. a. Petitioner applied to this Court for a stay of
further proceedings in the district court pending a decision on a forthcoming petition for a writ of certiorari. See
Appl. No. 17-859 (Feb. 12, 2018). The Court granted the
stay and subsequently granted certiorari. See 138 S. Ct.
2678 (2018).
b. On the merits, the Court unanimously vacated the
court of appeals’ judgment. 139 S. Ct. 524 (2019). The
Court held that “the ‘wholly groundless’ exception is inconsistent with the text of the [Arbitration] Act and with
[the Court’s] precedent.” Id. at 529. That holding proceeded from two basic premises. The first was that “an
agreement to arbitrate [questions of arbitrability] is
simply an additional, antecedent agreement,” on which

12
the Arbitration Act operates “just as it does on any other”
arbitration agreement. Ibid. (citation omitted). The second was that a court may not rule on the merits of a claim
that is assigned to an arbitrator, “because the agreement
is to submit all grievances to arbitration, not merely those
which the court will deem meritorious.” Ibid. (internal
quotation marks and citation omitted).
Applying those two principles to the context of arbitrability, the Court reasoned that a court “possesses no
power to decide” a question of arbitrability if the parties
agreed to arbitrate disputes regarding those questions.
139 S. Ct. at 529. “Just as a court may not decide a merits
question that the parties have delegated to an arbitrator,”
the Court explained, “a court may not decide an arbitrability question that the parties have delegated to an arbitrator.” Id. at 530. The Court thus held that, “[w]hen the
parties’ contract delegates the arbitrability question to an
arbitrator, a court may not override the contract”—“even
if the court thinks that the argument that the arbitration
agreement applies to a particular dispute is wholly
groundless.” Id. at 529.
After resolving the question presented in petitioner’s
favor, the Court noted that the court of appeals had not
decided whether the parties had delegated questions of
arbitrability to the arbitrator. See 139 S. Ct. at 531. The
Court therefore remanded for further proceedings. See
ibid.
5. On remand, the same panel of the court of appeals
again affirmed the denial of the motions to compel arbitration. Pet. App. 1a-16a. As a threshold matter, the
court of appeals acknowledged that the agreement’s incorporation of the AAA rules constituted “clear and unmistakable evidence that the parties agreed to arbitrate
arbitrability.” Id. at 7a (citation omitted). The court
therefore concluded that the agreement “delegat[ed] the

13
threshold arbitrability inquiry to the arbitrator for at
least some category of cases.” Id. at 8a. The court noted,
however, that the parties “dispute[d] the relationship of
the carve-out clause—exempting actions seeking injunctive relief—and the incorporation of the AAA rules.” Ibid.
Turning to that dispute, the court of appeals determined that the “plain language” of the agreement “incorporates the AAA rules—and therefore delegates arbitrability—for all disputes except those under the carve-out”
for actions seeking injunctive relief. Pet. App. 11a. The
court viewed “the placement of the carve-out” in the
agreements as dispositive: “[g]iven that carve-out,” the
court could not say that the agreement “evince[d] a ‘clear
and unmistakable’ intent to delegate arbitrability” as to
the carved-out claims. Ibid.
In so concluding, the court of appeals rejected petitioner’s argument: namely, that a provision exempting
certain claims from arbitration does not exempt those
claims from a clear and unmistakable delegation of arbitrability, because the scope of the carve-out provision is
one of the very questions of arbitrability that the parties
chose to arbitrate. Pet. App. 9a-10a.
The court of appeals then determined that the action
was one “seeking injunctive relief” within the meaning of
the carve-out provision. Pet. App. 12a-16a. Oddly, however, the court did not make that determination as part of
its analysis of whether the delegation of arbitrability applied. Instead, once it concluded that the delegation of arbitrability did not apply when the action involved one of
the carved-out claims, the court simply “[a]ccept[ed]” that
a court, and not an arbitrator, had the power to decide arbitrability in this case. Pet. App. 12a. The court then
turned to the question of “whether the underlying dispute

14
is arbitrable at all” and only then determined that the district court had correctly decided that the action was one
“seeking injunctive relief.” Id. at 12a-16a.
The court of appeals thus affirmed the district court’s
decision. Pet. App. 16a. The court acknowledged petitioner’s argument that, under the court’s interpretation,
“one party could unilaterally evade the agreement to arbitrate with an attenuated request for injunctive relief.”
Id. at 15a. Yet the court rejected petitioner’s proposed
interpretation, see p. 10, supra, reasoning that the arbitration agreement did not limit the carve-out provision to
“actions seeking only injunctive relief” or “actions for injunction in aid of an arbitrator’s award.” Id. at 14a. Like
the district court, the court of appeals did not address
whether petitioner was entitled to invoke the arbitration
provision under the doctrine of equitable estoppel. Id. at
16a.
The court of appeals subsequently denied rehearing.
Pet. App. 42a-43a.
6. Petitioner again applied to this Court for a stay of
further proceedings in the district court pending a decision on a forthcoming petition for a writ of certiorari. See
Appl. No. 19-766 (Jan. 8, 2020). The Court again granted
the stay.
After petitioner filed its petition for a writ of certiorari, respondent filed a conditional cross-petition asking
the Court to resolve two additional questions if it granted
the underlying petition. See 19-1080 Pet. i. The first
question was whether the incorporation in an arbitration
agreement of a set of arbitration rules that themselves assign questions of arbitrability to an arbitrator clearly and
unmistakably indicates that the parties intend for the arbitrator to resolve those questions. See ibid. The second
question was whether a court, and not an arbitrator, must

15
decide whether a non-signatory to an arbitration agreement can enforce the agreement under the doctrine of equitable estoppel. See ibid. The Court granted the petition
but denied the cross-petition.
SUMMARY OF ARGUMENT

The question presented in this case concerns the effect
of a provision in an arbitration agreement allowing the
parties to litigate certain claims or actions in court—in
simpler terms, a “carve-out” provision—on the determination of whether the parties agreed to arbitrate questions of arbitrability. This case comes to the Court on the
premise that the arbitration agreement at issue clearly
and unmistakably delegates at least some questions of arbitrability to the arbitrator: the court of appeals so interpreted the agreement, and this Court denied respondent’s
cross-petition on that question. Accordingly, the question
presented concerns the scope of an enforceable delegation
in an arbitration agreement that includes a carve-out provision. And under the analytical framework established
by this Court’s Federal Arbitration Act cases, a carve-out
provision does not affect the scope of an otherwise valid
delegation of arbitrability absent a clear indication that
the parties intended to divide responsibility for arbitrability between the arbitrator and the court.
A. The Arbitration Act embodies a liberal federal policy in favor of arbitration and requires courts rigorously
to enforce arbitration agreements according to their
terms. When a party moves to enforce an arbitration
agreement under the Act, two threshold questions of contract interpretation arise. Does the arbitration agreement mandate arbitration of the parties’ dispute? And
who should decide that question—the court or an arbitrator?

16
This Court has adopted two interpretive rules, derived
from the Arbitration Act, to assist courts in resolving
those threshold questions. The first is the presumption of
arbitrability, under which a court presumes that parties
to an arbitration agreement intended to arbitrate all disputes between them unless the agreement clearly provides otherwise. The second is the “clear and unmistakable evidence” rule, an exception to the presumption of arbitrability under which a court will not assume that the
parties agreed to delegate questions of arbitrability to the
arbitrator unless the agreement clearly and unmistakably
provides that the parties intended to do so. The Court has
made clear the latter rule is limited in scope. And it has
never extended that rule beyond the initial question
whether the parties agreed to delegate arbitrability.
B. This case presents the question whether a carveout provision in an arbitration agreement can operate on,
and thus negate, an otherwise clear and unmistakable delegation. The answer to that question turns on the answer
to another, broader question: how should a court resolve
a dispute over whether a particular question of arbitrability falls within the scope of a clear and unmistakable delegation? The best answer is that, once a court determines
that a valid delegation is present, the court should no
longer apply the “clear and unmistakable evidence” rule
to determine the scope of that delegation. Instead, the
court should apply the baseline presumption of arbitrability and interpret the delegation as encompassing all questions of arbitrability unless the agreement clearly provides otherwise.
That answer flows from both this Court’s case law and
the rationale for the “clear and unmistakable evidence”
rule. As for the Court’s case law: the Court has made
clear that provisions delegating arbitrability should be
treated as antecedent arbitration agreements that are

17
themselves enforceable under the Arbitration Act. And in
cases involving delegation provisions, the Court has applied the normal federal-law rules that govern agreements to arbitrate merits questions. The normal federal
rule for determining the scope of an arbitration agreement is the presumption of arbitrability.
As for the rationale underlying the “clear and unmistakable evidence” rule: the Court adopted that rule based
on an assumption that contracting parties “often” do not
think about who should decide questions of arbitrability.
But regardless of the validity of that assumption, it ceases
to have any further relevance once a court has determined
that the parties clearly and unmistakably agreed to a delegation of arbitrability. It therefore makes sense to revert to the default presumption of arbitrability in determining the scope of the delegation, as it furthers the parties’ intent in delegating arbitrability in the first place:
namely, to avoid delay and to protect the arbitration process.
C. Where an agreement includes a delegation of arbitrability and a carve-out provision, the carve-out provision
should not be interpreted to limit the scope of the delegation absent a clear indication of the parties’ intent to do
so.
1. The defining aspect of carve-out provisions such as
the one at issue here is that they speak in terms of claims
or actions excluded from arbitration, and they undisputedly allow the parties to litigate in court the merits of
those excluded disputes. Absent more, however, such
provisions do not provide the clarity necessary to rebut
the presumption of arbitrability as applied to a valid delegation of arbitrability, because they do not speak in terms
of questions of arbitrability. Where a carve-out provision

18
does not expressly limit the scope of a delegation, the presumption of arbitrability requires a court to construe the
delegation broadly.
2. The bizarre results that arise from the court of appeals’ approach illustrate the wisdom of resolving any
doubts about the interaction between a carve-out provision and a delegation of arbitrability in favor of the delegation. When a carve-out provision is treated as limiting
the scope of a delegation, it requires a court to determine
whether a claim falls inside or outside the carve-out before
enforcing the delegation. But that is itself a question of
arbitrability that would be delegated to the arbitrator if
the delegation applied. Thus, the court of appeals’ approach effectively guts the delegation: anytime the delegation is enforced, the court would have already resolved
the question of arbitrability.
Taken to its logical conclusion, the court of appeals’ approach could revive the “wholly groundless” exception
that this Court previously rejected, but in a more pernicious form. Nearly every arbitration agreement has some
limitation on its scope. The court of appeals’ approach
would allow a court to conclude that it must determine
whether the claims at issue fall within the scope of the
agreement before enforcing the delegation—thus arrogating to itself the power to decide arbitrability despite
the delegation clause. When parties enter arbitration
agreements that include both a delegation of arbitrability
and a carve-out provision, it is highly unlikely that they
desire that result. Application of the presumption of arbitrability to a delegation better respects the intent of contracting parties.
D. Under the appropriate analysis, the court of appeals’ judgment should be vacated. The court of appeals
erred by concluding that the district court properly resolved the parties’ arbitrability dispute based on the

19
carve-out provision in the arbitration agreement at issue.
Because the court of appeals left open the question
whether petitioner can enforce the arbitration agreement
under the doctrine of equitable estoppel, the case should
be remanded so that the court of appeals can address that
question (and who decides it).
ARGUMENT
THE EXEMPTION OF CERTAIN CLAIMS FROM THE
SCOPE OF AN ARBITRATION AGREEMENT DOES NOT
NEGATE A DELEGATION OF QUESTIONS OF ARBITRABILITY TO AN ARBITRATOR

The question presented in this case is whether, under
the Federal Arbitration Act, a carve-out provision in an
arbitration agreement can operate on, and thus negate, an
otherwise clear and unmistakable delegation of questions
of arbitrability to an arbitrator. The answer is no. Once
a court is satisfied that a clear and unmistakable delegation is present, the presumption in favor of arbitrability
applies to determine the scope of the delegation. And under that presumption, a carve-out provision cannot limit
the scope of the delegation absent clear evidence that the
parties intended to divide responsibility for arbitrability
between the arbitrator and the court. The court of appeals erred by concluding otherwise, and its judgment
should therefore be vacated.
A. The ‘Clear and Unmistakable Evidence’ Rule Applies
Only To The Initial Question Whether The Parties
Agreed To A Delegation Of Arbitrability

1. The Federal Arbitration Act reflects “both a liberal federal policy favoring arbitration and the fundamental principle that arbitration is a matter of contract.”
AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 339
(2011) (internal quotation marks and citations omitted).

20
The Act’s primary substantive provision, Section 2, guarantees that “[a] written provision in * * * a contract
evidencing a transaction involving commerce to settle by
arbitration a controversy thereafter arising out of such
contract * * * shall be valid, irrevocable, and enforceable, save upon such grounds as exist at law or in equity
for the revocation of any contract.” 9 U.S.C. 2. By its
plain terms, that provision requires courts to “place[] arbitration agreements on an equal footing with other contracts.” Rent-A-Center, West, Inc. v. Jackson, 561 U.S.
63, 67 (2010).
The next two sections of the Arbitration Act—Sections
3 and 4—“specifically direct[]” courts “to respect and enforce the parties’ chosen arbitration procedures.” Epic
Systems Corp. v. Lewis, 138 S. Ct. 1612, 1621 (2018). Under Section 3, a party may seek a mandatory stay of litigation pending the arbitration of any issue subject to an
arbitration agreement. See 9 U.S.C. 3. And under Section
4, a party may seek a mandatory order compelling arbitration in accordance with an arbitration agreement. See
9 U.S.C. 4. Together with Section 2, those provisions require courts “rigorously [to] enforce arbitration agreements according to their terms.” American Express Co.
v. Italian Colors Restaurant, 133 S. Ct. 2304, 2309 (2013)
(internal quotation marks and citation omitted).
2. When a party moves for a stay under Section 3 or
an order compelling arbitration under Section 4, a “gateway” interpretive question arises: does the parties’ arbitration agreement require arbitration of the dispute at issue? See Rent-A-Center, 561 U.S. at 68-69. That question
is known as the question of “arbitrability.” See Howsam
v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83 (2002);
AT&T Technologies, Inc. v. Communications Workers,
475 U.S. 643, 649 (1986); 1 Martin Domke et al., Domke on

21
Commercial Arbitration § 15:16, at 15-31 to 15-32 (3d ed.
2019).
“Arbitrability” is in fact a label that encompasses several specific questions, such as “whether the parties are
bound by a given arbitration clause” and “whether an arbitration clause * * * applies to a particular type of controversy.” BG Group plc v. Republic of Argentina, 572
U.S. 25, 34 (2014). There is also a question antecedent to
the question whether a particular dispute is arbitrable:
who decides arbitrability, the court or the arbitrator?
See, e.g., Henry Schein, Inc. v. Archer & White Sales,
Inc., 139 S. Ct. 524, 529 (2019); First Options of Chicago,
Inc. v. Kaplan, 514 U.S. 938, 942 (1995).
Although state law generally governs the interpretation of arbitration agreements, see Stolt-Nielsen S.A. v.
AnimalFeeds International Corp., 559 U.S. 662, 681
(2010), the Court has construed the Arbitration Act to establish two federal-law interpretive rules that a court
should apply in deciding the foregoing questions—
whether a dispute is arbitrable and who should decide that
issue. See Moses H. Cone Memorial Hospital v. Mercury
Construction Corp., 460 U.S. 1, 24 (1983).
The first of those rules is the presumption of arbitrability. That presumption is based on the “settled federal
rule that questions of arbitrability in contracts subject to
the [Arbitration Act] must be resolved with a healthy regard for the federal policy favoring arbitration.” Volt Information Sciences, Inc. v. Board of Trustees of Leland
Stanford Junior University, 489 U.S. 468, 475 (1989). Under the presumption, where parties “have agreed to arbitrate some matters pursuant to an arbitration clause,
* * * any doubts concerning the scope of arbitral issues
should be resolved in favor of arbitration.” Granite Rock
Co. v. Teamsters, 561 U.S. 287, 298 (2010) (internal quotation marks and citation omitted). Only if it is “clear” that

22
the parties’ arbitration agreement does not cover the dispute in question will the clause be construed to exclude it.
See First Options, 514 U.S. at 945; Domke § 15:19, at 1538 to 15-39.
The second federal-law interpretive rule is the “clear
and unmistakable evidence” rule, which is best understood as an “exception” to the default presumption of arbitrability. See Howsam, 537 U.S. at 83. The “clear and
unmistakable evidence” rule applies to the threshold
question of whether the parties agreed to delegate questions of arbitrability to the arbitrator. As has long been
settled, and as the Court reaffirmed when this case was
last before it, “parties may agree to have an arbitrator decide not only the merits of a particular dispute but also
gateway questions of arbitrability.” Henry Schein, 139 S.
Ct. at 529 (internal quotation marks and citation omitted);
see Rent-A-Center, 561 U.S. at 68-69; AT&T Technologies, 475 U.S. at 649; Steelworkers v. Warrior & Gulf Navigation Co., 363 U.S. 574, 583 n.7 (1960). The Court has
explained that an agreement to arbitrate questions of arbitrability is “simply an additional, antecedent agreement
the party seeking arbitration asks the federal court to enforce,” and the Arbitration Act “operates on th[at] additional arbitration agreement” just as it does on an agreement to arbitrate the merits of a dispute. Henry Schein,
139 S. Ct. at 529 (internal quotation marks and citation
omitted).
Under the “clear and unmistakable evidence” rule, a
court should not conclude that parties have delegated
questions of arbitrability to an arbitrator unless “there is
clear and unmistakable evidence that they did so.” Henry
Schein, 139 S. Ct. at 531 (alterations, internal quotation
marks, and citations omitted). The Court adopted that
rule under the Arbitration Act in First Options, supra, on
the assumption that parties “often” may not “focus upon

23
th[e] question” whether a court or arbitrator should decide whether a particular dispute is arbitrable. 514 U.S.
at 945; see also Warrior & Gulf, 363 U.S. at 583 n.7 (stating rule for purposes of labor arbitration); AT&T Technologies, 475 U.S. at 649 (same). The Court reasoned
that, because the question of who “should decide arbitrability” is a “rather arcane” one, interpreting “silence or
ambiguity” on that question in favor of arbitration “might
too often force unwilling parties to arbitrate a matter they
reasonably would have thought a judge” would decide.
First Options, 514 U.S. at 945; see Lamps Plus, Inc. v.
Varela, 139 S. Ct. 1407, 1416-1417 (2019). By applying the
“clear and unmistakable evidence” rule to the initial question of who decides arbitrability, the Court “reverse[d]”
the general presumption of arbitrability with respect to
that question. See First Options, 514 U.S. at 944-945.
3. As the Court has emphasized, the “clear and unmistakable evidence” rule has a “limited scope.” Howsam, 537 U.S. at 83. In Howsam, the Court considered
whether a court or an arbitrator should decide whether a
contractual provision setting a limitations period precluded arbitration. See id. at 85. In deciding whether the
“clear and unmistakable evidence” rule applied to that
question, the Court observed that, “[l]inguistically speaking,” one might refer to “any potentially dispositive gateway question” as a “question of arbitrability.” Id. at 83.
But the Court noted that it had applied the “clear and unmistakable evidence” rule only in the “kind of narrow circumstance” in which the parties “would likely have expected a court to have decided the gateway matter.” Ibid.
Because the Court concluded that parties “would likely
expect that an arbitrator would decide” threshold “procedural” questions that “grow out of the dispute and bear on
its final disposition”—such as the limitations question at

24
issue—the Court declined to extend the “clear and unmistakable evidence” rule to govern those questions. Id. at
84-85 (citation omitted); see BG Group, 572 U.S. at 34-35.
The Court also emphasized the limits of the “clear and
unmistakable evidence” rule in Rent-A-Center, supra.
See 561 U.S. at 69 n.1. There, the Court held that a court
may not determine whether an arbitration agreement is
unconscionable when the agreement delegates questions
of arbitrability to an arbitrator. See id. at 65, 68, 72. The
dissent would have resolved the case by holding that the
plaintiff’s allegation that the arbitration agreement was
unconscionable “undermine[d] any suggestion that [the
plaintiff] ‘clearly’ and ‘unmistakably’ assented to submit
questions of arbitrability to the arbitrator.” 561 U.S. at
81 (opinion of Stevens, J.). But the Court rejected that
approach, reasoning that the “clear and unmistakable evidence” requirement “pertains to the parties’ manifestation of intent” to arbitrate questions of arbitrability, “not
the agreement’s validity.” Id. at 69 n.1. Because the
plaintiff’s unconscionability argument went only to validity, the Court concluded that the delegation provision required that the arbitrator consider the argument. See id.
at 69 n.1, 72.
Consistent with Howsam and Rent-A-Center, this
Court has never extended the “clear and unmistakable evidence” rule beyond the initial question whether the parties agreed to delegate questions of arbitrability to an arbitrator. See First Options, 514 U.S. at 944-946; Warrior
& Gulf, 363 U.S. at 583 n.7.
B. The Presumption Of Arbitrability Applies To Determine The Scope Of A Delegation Of Arbitrability

In determining the effect of a carve-out provision on a
clear and unmistakable delegation, the Court is confronted with a question it has not yet addressed: how

25
should a court resolve a dispute over whether a particular
question of arbitrability falls within the scope of an otherwise valid delegation? Based on the Court’s case law and
the rationale for the “clear and unmistakable evidence”
rule, the answer to that question is clear. Once there is
“clear and unmistakable” evidence that the parties intended to arbitrate some questions of arbitrability, the
court should apply the normal presumption of arbitrability and conclude that the parties intended to arbitrate all
questions of arbitrability, absent a clear indication to the
contrary.
1. Applying the presumption of arbitrability to questions concerning the scope of a delegation provision comports with this Court’s cases involving delegation provisions more generally.
a. As noted above, see p. 22, the Court has treated a
delegation provision as “merely a specialized type of arbitration agreement,” New Prime Inc. v. Oliveira, 139
S. Ct. 532, 538 (2019), that is “antecedent” to the parties’
substantive arbitration agreement, see Henry Schein, 139
S. Ct. at 529 (citation omitted). For that reason, the Court
has held that the Arbitration Act “operates on” a delegation provision “just as it does on any other” arbitration
agreement. Ibid.
In line with that understanding, when the Court has
faced questions about the enforceability of delegation provisions, it has applied the body of substantive federal rules
that govern arbitration agreements more generally. The
Court’s previous decision in this case provides a good example. In rejecting the so-called “wholly groundless” exception to the enforceability of delegation provisions, the
Court relied primarily on the principle from AT&T Technologies, supra, that “a court may not rule on the potential merits of the underlying claim that is assigned by contract to an arbitrator, even if it appears to the court to be

26
frivolous.” Henry Schein, 139 S. Ct. at 529 (internal quotation marks and citation omitted). The Court had previously applied that rule only to agreements to arbitrate
merits questions, but the Court concluded that the rule
“applies with equal force to the threshold issue of arbitrability.” Id. at 530. “Just as a court may not decide a merits
question that the parties have delegated to an arbitrator,”
the Court reasoned, “a court may not decide an arbitrability question that the parties have delegated to an arbitrator.” Ibid.
Of particular note, respondent defended the “wholly
groundless” exception based in part on the notion that the
“clear and unmistakable evidence” rule required it. See
17-1272 Br. 24-25. Respondent argued that the “clear and
unmistakable evidence” rule was “dispositive,” because
“[i]t is safe to assume parties intended courts to refuse arbitration in the face of baseless demands.” Id. at 24.
Based on that assumption, respondent contended that a
court should interpret a delegation provision as encompassing only “claims that are at least arguably covered by
the agreement.” Ibid. (citation omitted). The Court, however, plainly rejected that argument; it applied the
“AT&T Technologies principle” without regard to the
“clear and unmistakable evidence” rule. Henry Schein,
139 S. Ct. at 530.
The Court’s decision in Rent-A-Center, supra, is to the
same effect. To resolve the arbitrability dispute there, the
Court turned to the severability rule applicable to arbitration agreements, which requires a party resisting arbitration to “challenge[] specifically the validity of the agreement to arbitrate” instead of the validity of the underlying
contract in which the arbitration agreement is located.
561 U.S. at 70; see, e.g., Prima Paint Corp. v. Flood &
Conklin Manufacturing Co., 388 U.S. 395, 403-404 (1967).
The Court acknowledged that the facts before it differed

27
from previous cases involving the severability rule because the specific arbitration agreement at issue was a
delegation provision and “the underlying contract [was]
itself an arbitration agreement.” 561 U.S. at 72. But the
Court viewed that as a distinction without a difference:
“Application of the severability rule does not depend on
the substance of the remainder of the contract.” Ibid.
The court therefore applied the severability rule and determined that, because the party resisting arbitration had
failed specifically to challenge the delegation, an arbitrator must decide whether the arbitration agreement was
unconscionable. See id. at 72-76.
b. The Court’s previous decisions in this case and in
Rent-A-Center demonstrate that the regular body of federal rules that govern arbitration agreements subject to
the Arbitration Act also governs delegation provisions in
those agreements. And one of the most fundamental of
those rules is the presumption of arbitrability. See pp. 2122, supra.
It naturally follows that, once a court finds clear and
unmistakable evidence of an intent to delegate questions
of arbitrability to an arbitrator, the presumption of arbitrability applies to determine the scope of the delegation
provision. Once a valid delegation provision is present, a
court should therefore presume that the parties intended
to arbitrate all questions of arbitrability, and it should “insist upon clarity before concluding that the parties did not
want to arbitrate” a particular question of arbitrability.
First Options, 514 U.S. at 945 (emphasis omitted).
2. Applying the presumption of arbitrability to questions concerning the scope of a delegation provision also
comports with the rationale animating the “clear and unmistakable evidence” rule.
a. As noted above, see pp. 22-23, the “clear and unmistakable evidence” rule is an interpretive principle

28
“based on an assumption about the parties’ expectations.”
Rent-A-Center, 561 U.S. at 69 n.1. As this Court explained
in adopting that rule in First Options, “[a] party often
might not focus upon” the question of who decides arbitrability “or upon the significance of having arbitrators
decide the scope of their own powers.” 514 U.S. at 945.
The Court therefore adopted the “clear and unmistakable
evidence” rule to reduce the “risk of forcing parties to arbitrate a matter that they may well not have agreed to arbitrate.” Howsam, 537 U.S. at 83-84. In that way, the rule
is designed to respect the presumed intentions of the contracting parties. See Rent-A-Center, 561 U.S. at 69 n.1;
First Options, 514 U.S. at 945.
Once there is clear and unmistakable evidence of a delegation of arbitrability, however, the assumption animating the rule is no longer tenable. After all, the existence
of clear and unmistakable evidence disproves the assumption: it demonstrates that the parties considered the
question of who decides arbitrability and selected the arbitrator. At that point, no special rule is needed, and the
ordinary rules governing arbitration agreements should
apply. Given “the law’s permissive policies in respect to
arbitration,” moreover, it would hardly be “reasonabl[e]”
for a party that has affirmatively agreed to arbitrate questions of arbitrability to assume that “a judge, not an arbitrator, would decide” a specific question of arbitrability
unless the agreement clearly excludes that issue from the
delegation. First Options, 514 U.S. at 946.
b. Applying the presumption of arbitrability to questions concerning the scope of a clear and unmistakable
delegation better tracks the parties’ intentions and expectations. Parties agree to arbitrate questions of arbitrability based on “[c]oncerns about delays and inefficiencies
caused by front-end resort to court.” Thomas J. Stipanowich, The Third Arbitration Trilogy: ‘Stolt-Nielsen,’

29
‘Rent-A-Center,’ ‘Concepcion’ and the Future of American Arbitration, 22 Am. Rev. Int’l Arb. 323, 348 (2011).
“The goal of a delegation” is thus to “insulate and protect
the arbitration process, preventing the parties from wasting time and money fighting in court before going to arbitration.” Domke § 15:11.50, at 74 (2020 Supp.). A presumption that a delegation provision encompasses all
questions of arbitrability furthers that goal by resolving
any doubts about whether the court retains some responsibility for arbitrability at the “front end” of the case.
This case well illustrates the problem if no such presumption is applied. Petitioner first moved to compel arbitration in 2012. Yet eight years later—a period of time
long enough for the parties’ underlying claims to have
been arbitrated many times over—petitioner and respondent are still attempting to resolve the threshold
question of who should decide arbitrability. In this very
case, therefore, the lower courts’ failure to apply the presumption of arbitrability, in combination with their earlier
efforts to preempt the delegation altogether, has trounced
the efficiencies that the delegation was designed to promote.
It will be the rare case in which contracting parties intentionally divide responsibility for deciding questions of
arbitrability between the court and the arbitrator. By
agreeing to a delegation provision, parties are seeking to
avoid protracted litigation in court over threshold issues.
Yet a limitation on the scope of a delegation provision will
always leave an antecedent question for a court to resolve—namely, whether an arbitrability dispute falls
within the scope of the delegation. The possibility of a dispute over that antecedent question creates uncertainty
for the contracting parties, as it could result in litigation
in court—precisely the result that a party seeks to avoid
by delegating questions of arbitrability to an arbitrator in

30
the first place. Perhaps for that reason, there appear to
be few cases in which parties expressly exempt particular
questions of arbitrability from a delegation. While such
parties could agree to such a division of responsibility, the
presumption in favor of arbitrability tracks the parties’
most likely intent by assuming that they do not intend
such an unusual result unless their agreement clearly provides for it.
Application of the presumption of arbitrability is particularly appropriate when the party resisting arbitration
contends that the delegation does not require arbitration
of a question concerning the scope of the underlying arbitration agreement. The question whether a particular dispute falls “within the scope of [an] arbitration agreement”
is the paradigmatic question of arbitrability. First Options, 514 U.S. at 945; see, e.g., Lamps Plus, 139 S. Ct. at
1416; BG Group, 572 U.S. at 34; Granite Rock, 561 U.S. at
297; Rent-A-Center, 561 U.S. at 68-69; Green Tree Financial Corp. v. Bazzle, 539 U.S. 444, 452 (2003) (plurality
opinion); Howsam, 537 U.S. at 84. For that reason, when
parties choose to delegate questions of arbitrability to the
arbitrator, the question of scope is likely the primary one
they are seeking to delegate.
In addition, by opting for arbitration in the first place,
the parties choose an arbitrator as their “officially designated ‘reader’ of the contract.” Boise Cascade Corp. v.
Steelworkers, 588 F.2d 127, 128 (5th Cir. 1979) (Wisdom,
J.) (citation omitted). And because the scope of an arbitration agreement is at bottom a question of contract interpretation, cf. W.R. Grace & Co. v. Rubber Workers, 461
U.S. 757, 765 (1983), “vesting the arbitrator with authority
to resolve” a dispute over scope “would appear to be entirely consistent with the parties’ intent as expressed in
the agreement to arbitrate.” Karen Halverson Cross,

31
Letting the Arbitrator Decide Unconscionability Challenges, 26 Ohio St. J. Disp. Resol. 1, 21 (2011). It therefore
makes eminent sense to apply the presumption of arbitrability to ensure that the question of scope is arbitrated
when the parties have clearly and unmistakably agreed to
a delegation of arbitrability.
C. A Carve-Out Provision Does Not Negate A Valid Delegation Of Arbitrability

The presumption of arbitrability makes easy work of
this case. Under that presumption, a carve-out provision
cannot limit the scope of an otherwise valid delegation of
arbitrability absent a clear indication that the parties intended to divide responsibility for arbitrability between
the arbitrator and the court. The court of appeals’ contrary approach—which required it to resolve the question
of arbitrability in order to determine whether the parties
had delegated that very question to the arbitrator—
makes no sense. This Court should reject it.
1. The Presumption Of Arbitrability Requires A
Carve-Out Provision To Be Construed Not To Limit
The Scope Of A Valid Delegation

The contractual provision at issue here is one that exempts, or “carves out,” certain claims and actions from an
arbitration agreement. The defining aspects of such a
carve-out provision are that it speaks in terms of the particular claims or actions that are exempted, and that it
unquestionably operates to allow the parties to litigate,
rather than arbitrate, the merits of those particular disputes. The question here, then, is whether a court may
construe such a provision also to operate on a delegation
of arbitrability, thereby requiring the court to resolve the
question whether the parties’ dispute falls inside or outside the carve-out provision before enforcing the delegation.

32
The arbitration agreement at issue in this case illustrates the problem in practice. Under that agreement, the
parties must arbitrate “[a]ny dispute arising under or related to” the underlying agreement. J.A. 114. But there
is a carve-out provision exempting “actions seeking injunctive relief” from arbitration. Ibid. The agreement
also includes a valid delegation of arbitrability. See Pet.
App. 7a-8a. The carve-out provision undisputedly requires a court to adjudicate the merits of the claims where
a plaintiff is “seeking injunctive relief” within the meaning
of the contract (in petitioner’s view, where a plaintiff is
seeking a preliminary injunction before the arbitration of
its claims or a permanent injunction after). The question
here is whether the carve-out provision requires a court
to determine for itself whether the action is one “seeking
injunctive relief” before sending the case to the arbitrator
to decide arbitrability (and, if the arbitrator decides the
dispute is arbitrable, the merits). See id. at 6a-7a.
The presumption of arbitrability provides the answer.
Because the agreement at issue includes a clear delegation of arbitrability, a court should presume that all questions of arbitrability are arbitrable absent a clear indication to the contrary. See pp. 24-31, supra. And a carveout provision of the variety at issue here does not provide
the requisite clarity. Such a provision speaks in terms of
claims or actions, as opposed to particular questions of
arbitrability. Its primary effect is to exempt those claims
or actions from the obligation to arbitrate the merits of
those disputes. Yet such a provision is silent about
whether a court or an arbitrator should resolve particular
questions of arbitrability for the carved-out disputes. A
carve-out provision that says nothing about arbitrability
(or any particular question of arbitrability) will at best be
“ambiguous” as to whether it acts on the delegation. See

33
Granite Rock, 561 U.S. at 301. Without more, the presumption of arbitrability requires a court to give effect to
the delegation in those circumstances and to permit the
arbitrator to decide all questions of arbitrability.
2. The Court Of Appeals’ Contrary Approach Conflicts
With This Court’s Case Law And Leads To Illogical
Results

In the decision below, the court of appeals accepted
that the arbitration agreement at issue contained the requisite clear and unmistakable evidence that the parties
had agreed to a delegation of arbitrability. Pet. App. 8a.
But instead of applying the presumption of arbitrability
to determine the scope of the delegation, it relied on the
agreement’s carve-out provision to conclude that the
agreement “delegate[d] arbitrability * * * for all disputes except those under the carve-out.” Id. at 11a. That
conclusion is badly flawed, and the bizarre results it creates further illustrate why a court should not construe a
carve-out provision to operate on a delegation of arbitrability absent clear evidence that the parties so intended.
a. The core flaw in the court of appeals’ reasoning is
that it conflates the question of who decides arbitrability
with the question of whether the dispute is arbitrable—
questions that this Court has made clear are analytically
distinct. See Henry Schein, 139 S. Ct. at 529-530. The
whole point of a delegation of arbitrability is to have an
arbitrator determine whether the plaintiff’s claim is arbitrable—and a core aspect of that determination is
whether the claim falls within the scope of the arbitration
agreement. See p. 7, supra. By deciding that very question as part of the inquiry into who decides arbitrability, a
court is necessarily resolving the underlying question of
arbitrability too.
That approach effectively guts the delegation. Under
the court of appeals’ logic, the delegation of questions of

34
arbitrability has force only when the carve-out provision
is inapplicable. But if the court will enforce the delegation
only after determining that the claims at issue do not fall
within the carve-out provision, then the question of arbitrability that will be sent to the arbitrator is the very question the court just resolved. Indeed, the court’s ruling on
that question “could bind the arbitrator under the doctrine of res judicata.” Blanton v. Domino’s Pizza Franchising LLC, 962 F.3d 842, 849 (6th Cir. 2020); see Collins
v. D.R. Horton, Inc., 505 F.3d 874, 880 (9th Cir. 2007).
As illustrated by this Court’s decision in Warrior &
Gulf, supra, that perverse result provides a good reason
to reject the court of appeals’ approach. There, the Court
was asked to construe a collective bargaining agreement
that contained a “no-strike” provision and provided for arbitration to settle employee grievances with management.
The arbitration agreement also contained a carve-out provision stating that “matters which are strictly a function
of management shall not be subject to arbitration under
this section.” 363 U.S. at 576. In the dispute before the
Court, the employees alleged that management had violated the collective bargaining agreement by contracting
out certain work to non-union employees.
In determining whether the grievance was arbitrable,
the Court began from the presumption of arbitrability,
stating that “[a]n order to arbitrate the particular grievance should not be denied unless it may be said with positive assurance that the arbitration clause is not susceptible of an interpretation that covers the asserted dispute.”
Warrior & Gulf, 363 U.S. at 582-583. The Court then held
that the grievance was not “necessarily excepted” from
the arbitration agreement and therefore compelled arbitration. See id. at 583. The Court acknowledged that the
carve-out for “management functions” could be construed
to refer to any act of management that did not violate the

35
collective bargaining agreement. See id. at 583-584. That
is because the very essence of any labor grievance under
a collective bargaining agreement is that management
has acted in a way that the agreement forbids. See ibid.
The Court reasoned that, “if courts, in order to determine
arbitrability, were allowed to determine” which management functions were permitted under the agreement, “the
arbitration clause would be swallowed up by the exception”—the court would be resolving the parties’ grievance
in order to determine whether that very grievance was arbitrable. Id. at 584.
To avoid that obvious problem, the Court concluded
that the “management function” carve-out “must be interpreted” to refer only to functions that the agreement
“make[s] clear” are not matters for arbitration. See Warrior & Gulf, 363 U.S. at 584. “In the absence of any express provision excluding a particular grievance from arbitration,” the Court reasoned, “only the most forceful evidence of a purpose to exclude the claim from arbitration
can prevail.” Id. at 584-585. In so deciding, the Court
stressed that courts should be wary of becoming “entangled in the construction” of the agreement “even through
the back door of interpreting the arbitration clause.” Id.
at 585.
The same principle applies to a delegation of arbitrability—which this Court has made clear should be treated
as an arbitration agreement in and of itself. In deciding
the scope of the delegation in the presence of a carve-out
provision, a court should not read the carve-out provision
in a way that requires the court to decide a question of
arbitrability in order to determine whether the parties
delegated that same question to an arbitrator. Instead, a
court should apply the presumption of arbitrability—as
this Court did in Warrior & Gulf—and construe the

36
carve-out provision not to limit the scope of the delegation.
b. The incoherence of the court of appeals’ approach
is illustrated in the decision itself. When addressing the
antecedent question of who decides arbitrability, the
court of appeals determined that a court would have to decide arbitrability if the action fell within the carve-out provision, but that the arbitrator would decide arbitrability
otherwise. See Pet. App. 11a. Yet the court failed to decide the now-doubly antecedent question of whether the
action fell within the carve-out provision. See id. at 11a12a. Instead, the court simply “[a]ccept[ed]” that the district court, and not the arbitrator, had the power to decide
arbitrability, and then (and only then) proceeded to determine whether the district court correctly decided the
question of whether the action fell within the carve-out
provision. See id. at 12a. In other words, the court of appeals assumed the answer to the question of who decides
arbitrability in order to reach the underlying question of
whether the dispute was arbitrable. See ibid.
That approach may have nominally avoided deciding
arbitrability as part of the question of who should decide
arbitrability. If so, however, it runs squarely into the
Court’s previous decision in this case. As the Court made
clear, “a court possesses no power to decide the arbitrability issue” if “the parties’ contract delegates the arbitrability question to an arbitrator.” 139 S. Ct. at 529. By
failing definitively to resolve the question of who decides
arbitrability, the court of appeals skipped a crucial step in
the analysis that it was required to address fully before
deciding the question of arbitrability. See ibid.
There is thus no escaping the serious problems that
arise from the court of appeals’ approach, under which either a court must decide the arbitrability question in order to determine whether the parties delegated that very

37
question to the arbitrator, or it must ignore the delegation
and thereby violate the Court’s previous decision in this
case. An interpretation of an arbitration agreement that
puts a court in such a bind cannot be correct.
c. Those problems are not limited to the particular
agreements at issue in this case; they could arise with virtually any delegation. See Pet. App. 11a-12a. Almost
every arbitration agreement includes some limitation on
scope, such as a limitation of arbitration to disputes “arising out of” the contract. A party resisting arbitration
could almost always argue that, because certain claims do
not necessarily arise out of a contract, a delegation provision does not apply to those claims, meaning that questions concerning arbitrability as to those claims have not
been delegated to the arbitrator. Under the court of appeals’ approach, regardless of the contractual language, a
court confronted with any limitation on the scope of an arbitration agreement would need to determine whether the
dispute was arbitrable before determining whether the
arbitrator should decide the question of arbitrability. The
court of appeals’ reasoning is thus entirely circular: it
would effectively mean that “a court must always resolve
questions of arbitrability and that an arbitrator never
may do so.” Henry Schein, 139 S. Ct. at 530.
Carried to its logical end, that flawed approach replaces the “wholly groundless” exception that this Court
rejected with what is effectively an expanded version of
that same doctrine. Previously, a court could refuse to
delegate a question of scope only if a party’s proposed interpretation was plainly without merit. But under the
court of appeals’ approach, a court need only disagree
with a party’s interpretation of the scope of the agreement
in order to refuse to delegate the question of scope to the
arbitrator. There is no basis in law or logic for that result,

38
especially in light of the “liberal federal policy favoring arbitration agreements” embodied in the Arbitration Act.
Moses H. Cone, 460 U.S. at 24.
d. The court of appeals created further problems by
focusing on the fact that the delegation in this case occurred through the incorporation of the AAA rules. In the
court of appeals’ view, the presence of the carve-out provision meant that the agreement incorporated the AAA
rules “for all disputes except those under the carve-out.”
Pet. App. 11a. But that same logic would apply to any arbitration agreement that incorporated the AAA or similar
rules: a party resisting arbitration could always argue
that the arbitration rules are incorporated only for actions
that fall inside the scope of the agreement. Indeed, the
AAA’s model arbitration clause includes a limitation on
scope to “any * * * claim arising out of * * * [the
underlying] contract”—as have the arbitration provisions
in numerous cases in which courts of appeals have upheld
delegations through incorporation. J.A. 119; see, e.g.,
Awuah v. Coverall North America, Inc., 554 F.3d 7, 9 (1st
Cir. 2009); Contec Corp. v. Remote Solutions, Co., 398
F.3d 205, 208 (2d Cir. 2005); Simply Wireless, Inc. v. TMobile US, Inc, 877 F.3d 522, 525 (4th Cir. 2017), cert. denied, 139 S. Ct. 915 (2019); Fallo v. High-Tech Institute,
559 F.3d 874, 876 (8th Cir. 2009); Brennan v. Opus Bank,
796 F.3d 1125, 1128 (9th Cir. 2015); Belnap v. Iasis
Healthcare, 844 F.3d 1272, 1275 (10th Cir. 2017); Qualcomm Inc. v. Nokia Corp., 466 F.3d 1366, 1368 (Fed. Cir.
2006).
If the court of appeals’ reasoning were correct, therefore, a court would always have to decide the question of
arbitrability in order to determine whether the AAA or
similar rules applied. And that in turn would mean that
the incorporation of such rules could never constitute an
effective delegation. That runs contrary to the decisions

39
of all eleven courts of appeals to have addressed the validity of delegation through incorporation—an issue this
Court expressly declined to consider. See 19-1080 Pet. i;
Blanton, 962 F.3d at 846 (collecting cases).
In sum, a provision in an arbitration agreement that
exempts certain claims from arbitration but is silent as to
questions of arbitrability does not negate an otherwise
clear and unmistakable delegation. The presumption of
arbitrability compels that result. This Court should reject
the court of appeals’ contrary approach, which was badly
flawed and would create intractable problems.
D. The Court Should Vacate The Judgment Below And
Remand The Case For Further Proceedings

Under the appropriate analysis, the court of appeals’
decision cannot stand. The arbitration agreement in this
case provided in relevant part:
Any dispute arising under or related to this Agreement (except for actions seeking injunctive relief and
disputes related to trademarks, trade secrets or other
intellectual property of [the manufacturing company])
shall be resolved by binding arbitration in accordance
with the arbitration rules of the American Arbitration
Association.
J.A. 114.
In the decision below, the court of appeals accepted
that the incorporation of the AAA rules provided the requisite clear and unmistakable evidence that the parties
agreed to delegate questions of arbitrability to the arbitrator, and this Court declined to review that holding
when it denied respondent’s conditional cross-petition.
See Pet. App. 7a-8a; 19-1080 Pet. i. The only aspect of the
court of appeals’ decision before this Court is thus its holding that the carve-out provision required judicial resolution of the parties’ arbitrability dispute.

40
The court of appeals erred when it so held. Because
the carve-out provision is silent as to who should decide
arbitrability, the presumption of arbitrability required
the court to construe the carve-out provision as having no
effect on the delegation. See pp. 31-33, supra.
While reversal of the decision not to compel arbitration would ordinarily be appropriate, respondent argued
below that petitioner could not invoke the arbitration provision under the doctrine of equitable estoppel; the court
of appeals did not reach that argument, and this Court declined to add a question concerning equitable estoppel.
See Pet. App. 16a; 19-1080 Pet. i. While the law in the
court of appeals is clear that the applicability of equitable
estoppel is a matter for the arbitrator to decide, see Brittania-U Nigeria, Ltd. v. Chevron USA, Inc., 866 F.3d 709,
715 (5th Cir. 2017); 19-1080 Pet. 20-21, this Court should
vacate the judgment below and remand to allow the court
of appeals to address that question in the first instance.

41
CONCLUSION

The judgment of the court of appeals should be vacated and the case remanded for further proceedings.
Respectfully submitted.
PAUL F. SCHUSTER
CYNTHIA KEELY TIMMS
LOCKE LORD LLP
2200 Ross Avenue,
Suite 2800
Dallas, TX 75201
RICHARD C. GODFREY
KIRKLAND & ELLIS LLP
300 North LaSalle Street
Chicago, IL 60654

AUGUST 2020

KANNON K. SHANMUGAM
WILLIAM T. MARKS
STACIE M. FAHSEL
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
ETHAN R. MEREL
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

